".                        \.
     Department of Health and Human Servces

                      OFFICE OF 

        INSPECTOR         GENERA


                                TION ON        AGllG
     STEWARSHI OF TIE                          il OF
            OLDER AMRICANS ACf:
                     The Methodology




                    VI.
                               Richard P. Kusserow
                               INSPECfOR GENERA

                                    MACH 199
                         " .      .,              . .'"                  , ' " ., . 
                         "''


                             OFFCE OF INSPECTOR GENERA

 The mission oftheOfficeofJnspector Genera (OIG)'as mandated by         Public Law95" 452
 as amended , is to protectth(:integrity of the Deparment of Heath and Human Se
 (HS)    programs as welIas the heatqand Voelfare , of beneficiares served by thoseryiCes! .',
                                                                                    progrtms.
 Ths ' statuory , missionis9f         , out ' througl1' a nationwide   network ,of   audits, investigations
 and , inspetions'   condu tedbythree OlGoperatig ' COIlPOl entS: the , Offce , of Audit , SerVices
 the Office of InvestigatioIls,andthe Offce of Evaluation and . Inspections. , 'Te Old also
 informs the Secretar)' of HHS of program , and management problems , and recommends
 courses to correct them.

                                   OFFCE OF AUDIT SERVICES

 The OIG' s Office ofAJlditServices (OAS) provides all auditig services for HHS eitherby
 conducting' audits with its own audit resources or by overseeing audit work done by others.
 Audits examine theperforrance of HHS programs and/or, its gratees and contractors in "
 caring out their respective responsibilities and are intended to provide independent

 assessments ofHHS progras          and operations in or    er to reduce waste , abuse , and,

 mismanagement and to promote economy and             effciency throughout the Deparment.


                                   OFFCE OF INESTIGA TIONS

 The OIG' s Office of Investigations (Ol) conducts criminal , civil , and administrative
 investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
 unjust enrchment by providers. The investigative efforts of OI lead to criminal convictions
 administrtive sanctions , orcivil moneypenaIties. The OI also oversees State Medicaid
 fraud control units which investigate and prosecute fraud and patient abuse in the Medicad
 program. , 


                         OFFCE OF EVALUATION AN INSPECTIONS

 The OIG' s Offce of Evaluation and Inspections (OEl) conducts short- term management and
 program evaluations (caled inspections) that focus on issues of concern to the Deparment
 the Congress , and the public. The findings and recommendations contaned in these
 inspection reports generate rapid , accurate , and up- to- date information on the effciency,
 vulnerability, and effectiveness of deparmenta programs.

 This report was prepared in the New York Regional Office under the direction of Thomas F.
, Tully, Regional Inspector General of Region II , Office of Evaluation and Inspections , and
  Alan S. Meyer , Deputy Regional Inspector General. Paricipating in this project were the
  following OIG personnel:

 Jack I. Molnar Project Leader

 Le    K. Bostick Region VI

 Susa E. Hardwick Headquarters

Departent of Health and Human Servces
                         OFFICE OF

  INSPECTOR                        GENERA


  AD~S~TION ON AGllG

STEWARSIl OF TIE                              il OF
      OLDER AMRICANS ACf:
                         The Methodology




                              Richard P. Kusserow
                              INSPECfOR GENERA
              "0



                   ""a            OEI-0-91-01510
                                         .......... ... ....... .... .. .. ...'" ....
                             ......... .............. ........                    ....
                                                       . . . . . . . .". . . .. .. .. . . .
                           . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... ..
                                                                                                      . .. .. ... ....................... ... ..
                                                                                                                                              ..




                                                   TABLE OF CONTENTS



INODUCTION
            Purpse
            Background


COMPLIACE REVIEW METHODOLOGY

            Sampling

            Data Collection

            Traning

               Analysis and Reportng

               Schedule. . . . . . . . . . . . . . . . . . . . . . . .

APPENIX A: 
              Stewardship Compliance Review. . . . . . . . . . . . . . . . . . . . A­

APPENIX B: 
              Targeting Compliance Review                              . . . . . . . . . . . . . . . . . . . . . B­
APPENIX C: 
              Financial Management Compliance Review                                          . . . . . . . . . . . .. C­
APPENIX D: 
              Nutrtion Services Compliance Review                                                                                      D- I

APPENIX E: 
              Ombudsman Compliance Review                                    . . . . . . . . . . . . . . . . . . . E­
                                     INTRODUCTION



PURSE
Ths report trsmits the methodology for the review of State Units ' on Aging (SUA)
compliance with the requirements of Title II   of the Older Americans Act (OAA).


BACKGROUN
In order to strengthen the Administrtion on Aging s (AoA) stewardship of the OAA , the
Commissioner of AoA has requested technical assistace from the Offce of Inspector
Genera (OIG) in designing an assessment of their primar grantees -- SUAs. In June 1991
OIG staf met with key AoA headquarers and regional staff to identify trditional and
current stewardship activities , and to discuss potential approaches for future efforts. As
result , parcipants agree that in addition to reinstituting the monitoring of individual States
there was a nee to provide the Commissioner with an overview of how States are
implementing key components of Title II -- Grants for State and Community Programs on
Aging. Accordingly, OIG staf would assist AoA in developing national , stadardized
compliance review instrments for key components of Title II and in writing a report
summaring States ' compliance with the Act. It was also agree the compliance reviews
would be conducted on a saple of States to conserve trvel dollars.

Designing the compliance review took a number of steps. The       first step was a meetig
between OIG and selected AoA regional staff to branstorm approaches and issues. This took
place durig a three-day session in Washington , D. , where specific Federal reportng and
operational requirements for SUAs and Area Agencies on Aging (AAAs) and potential
monitorig strtegies were discussed.

The second step was to drat the instrments which     would contan the compliance review
questions and criteria , and would serve as the one place to record al data. Two writing
tes   , composed of OIG and AoA staf, shared ideas and approaches initially, and then
created ealy versions of the instrments. These were shared with AoA Headquarers staff
and each regional office for comments , and then revised to reflect comments.

During the third step, OIG and AoA staf pre-tested the instruments and data collection
methodology. Ths necssitated conducting actual compliance reviews for each of the five
instrments in three different regions. We found , durig the pre-test , that a great dea of
time was lost explaiing criteria (interpreting law and regulation) and seaching for
documentation. Based on these reviews , we modified each of the instruments and changed
the data collection methodology. The most significant change to the methodology requires
sharng copies of the review instrments with the States prior to the site visit. We believe
that  States are aware of and understad the review criteria being used during the
       if

compliance review ,   they wil be better prepared to provide required   documentation and to
discuss speific compliance   issues.
                                       SAME STATES

          Strtu 1               Strtu 2           Strtu 3                Stratwn -4

      Caiforna             Michigan             Wiscnsin        New Hampshire
      Penylvana            Indiana              Colorado        North Dakota
      New York             Massachusetts        Oklahoma        Nevada
      Texas                Georgia              Maie            District of Columbia
      Florida              Nort Carolina        Oregon          Montaa


We wil also employ sampling techniques during our visits to the States for our reviews of
AAA area plans and assessments. In some States , the number of AAAs could excee 30
which would ta the limited resources available to the reviews. Therefore , prior to our visit
to each State , we wil select a simple , random sample of 10 AAAs to review on-site.




DATA COLLECTION

The actual data collection wil be conducted in two phases -- a desk review and an on-site
review at the SUA. Durig the desk review phase , AoA Regional Program Directors (RD)
wil send a letter to each SUA selected in the sample announcing the compliance review
listing compliance review criteria , and requesting selected documents. The documents
requested wil include area plan guidance and program instructions for each of the review
area , as well as a copy of the State s assessment instrments for AAAs. The AoA staff wil
review these prior to the site visit to determine if they are consistent with Federal law and
regulations. The desk review wil also include an assessment of priority services waivers and
a review of tageted populations parcipation data from the State Program Report.

Following the desk review , the RPD wil send a second letter to each SUA in the sample. It
wil provide a proposed agenda for the site visit , a listing of the ten AAAs whose area plans
and assessment reports wil be reviewed , copies of the compliance review instrments
(Appendices A-E), and findings from the desk review to be discussed during the site visit.

The instrments share a common approach to data collection. Initially, the instrments focus
on the guidance SUAs issued to AAAs on key requirements of Title II , and on the
instrments and proceures they use to assess AAA compliance with those requirements. A
review of area plans wil determine whether , and to what extent , they reflect OAA
requirements. The review of area-specific assessment reports wil determine compliance.
The instrments also focus on the issues of SUA operating procedures , and on training and
technica assistace activities. The Ombudsman instrument is an exception since all
Ombudsman activities are cared out by the SUA and do not require the involvement of
AAAs.
During the   trng, the procedures for conducting the compliance review wil be discussed
in deta. Ths wil assure that each review tea functions similarly on-site , that data are
being collected in the proper sequence , and that all components of the five compliance
reviews are being covered. With regard to sequencing, certin tasks will be identified for
completion in a parcular   order.


The AoA staf wil also nee to develop key data collection skills -- interviewing and
recrding. The interviewing skills wil assure that all questions wil be asked the same way.
Varance in how questions are asked can affect the integrity of the review findings.
Recrding conventions wil be reviewed to assure that responses and quantitative data are
recorded in the same manner by all review teams. Lastly, during the training sessions team
members wil receive some trning in the analysis of open-ended questions.



ANALYSIS AN REPORTING

The analysis of the compliance review data wil be led by AoA and OIG staff in Regions 2
and 6. In the lead Regions , OIG/ AoA teams wil enter data from the compliance review
instrments into automated databases. The AoA regions wil be given responsibility for the
analysis of open- ended questions in different programmatic areas. This wil give all AoA
regions an opportunity to parcipate in the analysis phase of the report.

Once the analysis is completed , the lead Regions wil develop one- page briefing papers for
each of the compliance review areas. These wil serve as the basis for a story conference
with the Commissioner. At the story conference , the lead teams will brief the Commissioner
on fmdings , respond to questions , and discuss drafting the reports and recommendations.


Six compliance review reports wil be written.   One report wil be written for each of the
five compliance review instruments and wil present findings based on a weighted- frequency
distrbution of key questions. A sixth report wil present a overview or summar of the five
programmatic reports and wil focus on cross-cutting issues. The reports wil contan , where
appropriate , recommendations for strengthening SUA operations or AoA stewardship.
APPENDIX A

                                         ----------------------------------------------
                                           ,...





                                          STEWARSHIP COMPLIACE REVIEW

                                                          HHS/AOA - 03/20/92


State                                                                      Date

Prary Respondent                                                                  Telephone

Review Tea Leder                                                                  Telephone




        Prir to the on-sie               visi,     obtain a copy of the Area Plan fomzat provided to Area Agencies
        on Aging (AAs) from the State Agency on Aging (State Agency). Review                             and detemzine
        whether or not the Area Plan fomzat addresses the crieri                        identified in the following
        table. Indicate your responses with an 
                         in the approprie column reflecting these codes:

                                      Y (Yes)                 Total Compliance with Crieri

                                     P (Partl) =              Partl Compliance with Crieri

                                     N (No) =                 Not in Compliance with Crieri

                                             CRIRI                                                    COMMNTS
                 Sec. 306(a)(2)

                 contain an assurace that an adequate proportion of

                 Title m- B win be expended for acces ,          in-   home

                 and legal assistace


                 spify anualy, amounts               expended in previous

                 fisc year for access , in-home and legat asistace;


                 Sec. 306(a)(3) & 1321.3

                 designate communty focal points for selVices;

                 Sec. 306(a)(4)

                 establish and maintain informtion and referrl

                 service;

                 Sec. 306(a)(5)

                 assure that preference is given to selVing those of

                 greatest economic or social nees (particularly low-
                 income miorities)...
                 have proposed methods to selVe those of greatest
                 ecnomic or social nees...



                                                                                                        Stewardship - Final
                           CRIERI                               COMMNTS

      assure each service provider agreement wil spify
      how the service provider will serve low- income
      miorities... in at leat the sae proporton..
      identify numbers of and desribe method      us
      serve low- income miorities in previous fiscl
      year...
      asre use of outreach methods... with special
      emphasis on rura elderly, greatest economic or
      soial nee (with paricular     attention to low- income
      miorities), and severe   disabilities;

      Se. 306(a)(6)


      conduct periodic (at leat anually) evaluations

      conduct public hearigs on    Ar Plan activities...
      conduct an anual evaluation on outreach...

      provide tehnca assistace to service providers...
      consider views of reipients of service in the
      development and admistration of Area Plan...
      monitor , evaluate , and comment on policies,
      actions... affecting elderly...
      provide volunteer opportties for older individuas
      in day care services for children and adults and
      resite for famiies...

      establish an Area Agency advisory council..
      develop and publish methods for determng
      priority of services. ..
elD   establish proceure for cordinating Title
      progrms with other Federal programs as spified
      in Sec. 2D3(b)...


ell   faciltate cordination with communty-bas, long-
      term ca    services...
el2   identify agencies and organizations workig in area
      of abus , neglect , and exploitation of older people...
e13   determe unet service nees of abuse , neglected
      and exploited older individuals..

el4   facilitate involvement of long- term care providers in
      cordinating community- based     long-term care
      service...
elS   cordinate priority service with Alzheimer     s disea
      organizations...

                                                                 Stewardship - Final
(If additnal space is required, use the back of the previous page.
Beyond that required by Sec. 306 of OAA , what significant items have you added to area
plan formats?





            Don   t Know
   (Check if applicable)



                                           A-4                           Stewardship - Final
       Doe the State Agency have any criteria for approving the direct provision of supportve
       servce ,    nutrtion services ,                or in-home services'?

                         Yes          (If yes) 
   , What are they'?




             (2)
             (3) Don                        t Know
       (Check if applicable)

10.	   Are any AAAs approved by the State Agency to directly provide supportive services
       nutrtion services or in-home services'?

                         Yes
                         No
                                (If No, sldp to queston 12)

                         Don      t Know 
         (Check if applicable)


11.	   What are the number of AAAs providing each'?

                         Number of AAAs directly providing supportive services
                         Number of AAAs directly providing nutrition services
                         Number of AAAs directly providing in- home services
                         Don t Know (Identify whether Don t Know applies to a,                    b
                      or combinatn):




12.	   State Agencies have the ability to waive the adequate proportion requirement for Title II-

       record response)
       for accss services. How many AAAs have                                  (Fill-in with a-c and
                                                                       been grated waivers for:




                         Access services'?

                         In- home services'?

                         Legal assistace services'?

                         Don t Know (Identfy whether Don t Know applies to a,                     b

                      or combinatn):




(NOTE:      A1TACHMENT B PERTAINS TO IN-HOUSE DESK REVIEW OF AM WAIVERS
                                 MISSING OR INDICATES DISCREPANCIES, ASK
             - IF ANY INFORMATION 	                         IS

            ABOUT THESE DURING THE ON- SITE VISIT AT THIS POINT)

                                                                    A-6	                               Stewardship - Fina
                               CRIRI                             COMMNTS

       identify numbers of and desribe methods     us
       serve low-income miorities in previous fiscl
       yea...
       as us of outrh        methods... with special
       emphasis on rural etderIy, great ecnomic or
       -sial nee (with particular attention to low- income
       miorities), and severe disabilties;
       Se 306(a)(6)
       conduct periodic (at leat anualIy) evaluations


       conduct public hearigs on Area Plan activities...

       conduct an anual evaluation on outreach...

       provide technca assistace to service providers...

       consider views of recipients of service in the
       devetopment and admistration of Area Plan...
       monitor, evaluate ,   and comment on policies,
       actions.. . affecting elderly...

       provide volunteer opportties for older individuas
       in day care service for children and adults and


       reite for families...
       establish an   Ar Agency advisory council..
       develop and publish methods for determg
       priority of service...
e10	   establish proure    for cordinating Title m
       programs with other Federat programs as specified
       in Sec. 203(b)...
ell	   faciltate coordination with communty-based , long-
       term care services...
e12	   identify agencies and organizations workig in area
       of abus , neglect , and exploitation of older peple...
e13	   determe unet service nees of        abus, neglected,
       and exploite older individuals...

e14	   facilitate involvement of tong- term care providers in
       cordinating communty- bas long- term
       service...
e15	   cordinate priority services with Alzheimer   s disea
       organzations...
e16	   cordinate Title mo B mental health service with     the
       services of other mental health agencies and
       organzations...

                                                                  Stewardship - Final
       (If additnal space is required, use the back of the previous page.

15.	   Beyond that required by Federa law or regulation , what   significant items have you added to
       your assessment instrument for assessing AAAs?




             - Don        t Know
    (Check if applicable)


16.	   How frequently does the State Agency perform an assessment of all AAAs?

                     Annualy
                     Biannually

                     Quarerly

                     Other   (Specif time period)





             - Don        t Know 
   (Check if applicable)


17.	   What were the beginning and ending dates of the last complete cycle of assessments of all
       AAAs?

             Beginning Date ­

             Ending Date ­



                                                                                   Stewardship - Final
20.	 Provide a brief description of how each procss is used to monitor the performance of
     AAs.     (Descriptin should be provied for each applicable response provided   in questn
     19)




21.	 What were the most common deficiencies reveaed in the last cycle of assessments of the
     Area Agencies?





                 Don   t Know 
   (Check if applicable)




                                                                               Stewardship - Final
26.	   Have you analyze the:              (Fill-in    the remainder of the question with a, b, and c.   Indicate
       response for each)


       a. evaluation of        activities?

                 (1)            Yes
                                      (If Yes),     What are your primar observations based on the analysis?




                 (2)
                 (3) Don              t Know 
      (Check if applicable)


       b. results of public heangs?
                 (1) 	          Yes   (If Yes), 
   What are your primar observations based on the analysis?




                 (2)
                 (3) Don              t Know 
       (Check if applicable)


       c. evaluation of outreach?



                 (1)            Yes   (If Yes),     What are your primar observations based on the analysis?




                 (2)
                 (3) Don               t Know 
      (Check if applicable)




                                                                                               Stewardship - Final
       :!!

29.	 Doe the State Agency have any unmet training or tehnical assistace nees related to
       stewardship activities?

       a. 	       Yes
                        (lfyes),   Pleae describe:




                  Don   t Know
    (Check if applicable)

30.	   The preselected sample of 10 Area Agencies on Aging were identified prior to the on-sie
       visi. This sample is to be used throughout the compliance review process for all five
       areas, the firs compliance review being Stewardship.


       For the sample AAs, obtain the most current Area Plan. Review each Area Plan and
       detennine the extent to which the plan addresses the statutory and regulaory crieri
       identified in Atachment A. Record your responses on the following table using these
       codes:

                              Y (Yes) =      Total Compliance with Crieri
                             P (Part) =      Part Compliance with Crieri
                             N (No) =        Not in Compliance with Crieri
                             NSC             No Stae Crieri (State Agency does not assess this
                                             Fedeml crieri 
      identified through in-house   review of
                                             State Agency      s assessment tool and relaed materis)
                                             Other Finding (provide explanaton and indicate by
                                             reporl number and crieri number in the Comments
                                             section following the table)




   Criteri




                                                                                       Stewardship - Final
el2

e13


el4

elS

el6

el7

el8




COMMS:




         Stewardship - Final
elO




el2

e13


el4

elS




      Stewardship - Final
                                       ,...



                                                                            IT ACHM


                          STEWARSHIP CRIER


Sec. 306(a)(2)

contan an assurace that an adequate proporton of Title II-B        wil be expended for
acCss , in- home , and legal assistace
specify annually, amounts expended in previous fiscal yea for access ,     in-   home and
legal assistace;
Sec. 306(a)(3) & 1321.3

designate community foca points for services;
Sec. 306(a)(4)

establish and maintan information and referr services;
Sec. 306(a)(S)

assure that preference is given to serving those of greatest economic or social nees
(parcularly low- income   minorities)...

have proposed methods to serve those of greatest economic or social nees...

assure each service provider agreement wil specify how the service provider wil serve

low-income minorities.. .in at least the same proporton...

identify numbers of and describe methods used to serve low- income minorities in

previous fiscal yea...


assure use of outreach methods... with speial emphasis on rural elderly, greatest
economic or social nees (with parcular attention to low- income minorities), and
severe disabilties;
Sec. 306(a)(6)

conduct periodic (at least annually) evaluations
conduct public heangs on Area Plan activities...
conduct an annual evaluation on outreach...
provide technical assistace to service providers...
consider views of recipients of services in the development and administration of Area
Plan.. .


monitor , evaluate , and comment on policies , actions... affecting elderly...



                                                                              Stewardship - Final
                                                                                                       ATIACHMNT B


                          AOA IN-HOUSE DESK REVIW OF AAA WAIVERS


Identi from in-house documents those AA which have received an approved waiver. On the
following table list each. Review the in-house documentaton and determine whether each
 addresses questns a-e. Record your responses on the table using these codes:

                         Yes
                        No (provide explanaton and indicate by AA)

                        Discrepancy (provie explanaton and indicate by AA what the discrepancy is in

                        the Comment sectin)
                                       AA
                        Missing informaton
                                            
 (provide explanaton and indicate by                      what the
                        discrepancy is in the Comment section)

     Prior to the submission of the waiver , did the Area Agency conduct a public hearing?

     1/ the answer to question a was yes,        was the reord of the hearing submitted with the waiver request to the State
     Agency?

     Prior to the grating of the waiver , did the State Agency publish the intention to grant such a waiver with the
     justification at leat 30 days prior to the effective date of the decision to grant the waiver?

     Were any hearigs convened by the State Agency durig the 30-dy period in response to requests from individuals
     or service providers from the area?



     Did the State Agency provide to the U. S. Commssioner on Aging, through the appropriate AoA Regional Offce , a
     report regarding the waiver along with a copy of the notice of public hearing and minutes of the hearings conducted
     by the Area Agency and the State Agency (if appropriate)?


                                                                                                           STATE
                                                             HEARNG          STATE          STATE          PROVIDED AOA
                                            PUBLIC
                                                             REORD           PUBLISHED      HEARING        REPORT ON
                                            HEARNG	          SUMITTD         INTENT 30      DURNG 30       WAIVER WITH
                                                             WITH                           DAYS IN        COPY OF
   AAA   WI WAIVR	                          HELD
                                            BEFORE
                                                             WAIR
                                                             REQUE, IF
                                                                             DAYS PRIOR
                                                                                            RESPONSE       NOTICE OF
                                                                                                           HEARNG AN
                                            SUBMISSON                        EFFCTIVE
                                            OF WAIVER 

                                                             HEARNG          DATE OF        REQUES         MINUES OF
                                               (0)
                                                             HELD            DECISION       (IF AN         AN HEARINGS
                                                                (b)            (e)            (d)            (e)




                                                                                                     Stewardship - Final
                                                                                              SIATE
                                                     HEAG         SIATE        SIATE          PROVIDED AOA
                                       PUBLIC        REORD        PUBLISHED    HEARING        REPORT ON
                                       HEARNG        SUMITID      INTENT 30    DURNG 30       WAIVER WITH
                                                     WITH                      DAYS IN        COpy OF
         AA WI WAIVR                   HELD
                                       BEFORE        WAIVER
                                                                  DAYS PRIOR
                                                                               RESPONSE       NOTICE OF
                                       SUBMISSION    REQUE. IF    EFFCTIVE                    HEARING AN
                                       OF WAIR       HEARNG       DATE OF      REQUESS        MINU OF

                                         (a)
                                                     HELD         DECISION     (IF ANY        AN HEARNGS

                                                       (b)            (c)       (d)             (e)




COMMNTS:





(If additonal space is required, use the back of the previous page.
                                                                                         Stewardship - Final
APPENDIX B

                                   TARGETIG COMPLIACE REVIEW

                                                    HHS/AOA - 03/20/92


State                                                                 Date

Prary Respondent                                                             Telephone

Review Tea Leder                                                              Telephone




        In our ealier interview on stewardship,                   we discussed how your assessment instrument
        addresses tageting. What other procedures do you use                     to review and evaluate each Area
        Agency on Aging       s (AAAs) performance in tageting?                 (eg. on-site/desk review)?




              - Don           t Know 
      (Check if applicable)


        Did the State Agency underte speific activities in support of tageting during the last two
        Federa fisca yeas?
                        Yes

                       No

                       Don
                                 (If Yes, go to questn 3)
                                 (If No, go to queston

                                  t Know
                                                                     4)
                                                 (If Don t Know, go to queston 4)




                                                                                                       Targeting - Final
Describe and give examples of the following activities underten by the State Agency in
                durig the last
support of tageting                           (Read list and check those with
                                         two fisca yeas?


offirmve responses. For each affinnatve response,           examples of that activit,
                                                             identify

where applicable.


                          ACTIVY                                        EXAMPLES OF ACTIVY

            Altered fuding formula
                        Not Applicable


            Monitored/assessed AAs                         (1)




                                                           (2)



            Conducted traing conferences ,      meetings   (1)
            workshops


                                                           (2)



            Dissemiated techncal assistace/informtion      (I)



                                                           (2)



            Conducted data analysis                        Not Applicable


            Formed State- level   tak force or advisory    (I)
            commttee


                                                           (2)



            Implemented specific objectives in the State   (1)
            Plan


                                                           (2)




                                                                                    Targeting - Final
                           ACTIVY                                    EXAMPLES OF ACTIVY
            Established paricipation targets                 (1)




                                                             (2)



            Other,   (Identi):                               01(1)

      n1.

                                                             01(2)

      02.

                                                             02(1)



                                                             02(2)




Describe and give examples of activities implemented by AAAs to increase the parcipation
of tageted populations. 
 (Probe for infonnaton on: outreach, specializaon of services
designed for specifc target groups, staffing, provider and site selection)



              TARGET ACTIVIE                            EXAMPLES OF TARGET ACTIVIES

       Outreach                                 (1)



                                                (2)



       Speialization of Services Designed for   (1)

       Speific Target Group



                                                (2)




                                                  B-4                                 Targeting - Final
            Prior to this visit , we sent you a table entitled " Target Population Parcipation. " The data
            come from your State Program Reports for the last three yeas. What factors affect your
            trends?




            The next few questions focus on the service nees of low- income-minorities.      Does the
            State Agency have diffculty in obtaning the required low income-minority data?

                  - Yes , Please explain the diffculties being encountered by the State Agency:




                          Don   t Know     (Check if applicable)


8. Do the        AAAs have difficulty in obtaning the required low income-minority data?

                  - Yes , Please explain:




                          Don   t Know     (Check if applicable)

            What are examples of the " succssful" methods used by service providers to satisfy the
            servce nees of low-income minority individuals  (as contained in the service plan of
            proviers complying with     OAA Sec. 306(a)(5)(A)(ii) and Regulaon 1321. 65(b))




                  - Don         t Know 
   (Check if applicable)



                                                          B-6                                Targeting - Final
13.	   What are some examples ' of successful outreach techniques used by AAAs in reaching
       tagete populations?



             - Don            t Know 
      (Check if applicable)


14.	   If identified   , how does the State Agency address outreach deficiencies of the AAAs?




             - Don            t Know
       (Check if applicable)

IS.	 Did the State Agency conduct an annual evaluation last year of its effectiveness in outreach
       to tagete populations ,           as stipulated in Section 307(a)(8)?

                        Yes   (If Yes) 
    What outreach activities were found to be most effective?

                       (1)




                       (2)	   - Don             t Know 
   (Check if applicable)


                        Don   t Know 
     (Check if applicable)




                                                                                              Targeting - Final
19. What do you see as the major success of the State Agency s tageting effort?




             - Don         t Know 
   (Check if applicable)


20.	 What are the major obstacles to effective tageting that stil must be addressed   (at either the
     State or AA level)?




             - Don         t Know 
   (Check if applicable)


21.	 What speific activities should AoA underte to assist State Agencies ' and AAAs ' tageting
     efforts?




             - Don         t Know 
   (Check if applicable)

22.	 Are there any other issues or comments regarding tageting you would like to share with us?




(INTERVIEW COMPLETED)


                                                                                      Targeting - Final
For each tageted population ,         identify the source of the data and the yea that the data was
avaiable. (For          example , a source could be identified as the Bureau of Census , 1990).


 TARGETED POPULATIONS                             DATA SOURCE                  DATA AVAILABLE

a. 60 + population


b. Minority population


c. Fral/Disabled


d. Rur
e. Low-income non- miority

f. Low-income miority


g. Other, 
   Specif:
    (1)

    (2)

    (3)




                                                                                       Targeting - Final
I. FraDisabled





J. Rura





K. Low-Income
    Non Minority


L. Low-Income
    Minority




                   Targeting - Final
APPENDIX C

                              -------------

                     FIANCIA MAAGEM COMPLIACE REVIEW
                                               HHS/AOA - 03/20/92


State                                                              Date

Prary Respondent                                                          Telephone

Review Tea Leder                                                           Telephone


                                                                          ---..-_-_a__--__---

        Prir to the on-sie visi, obtain copies of                policies, procedures, and other guidance to Area
        Agencies on Aging (AAs) on financial management from the State Agency on Aging
        (State Agency). Review and detennine whether or not these issuances address the crieri
        identified in the following table. Indicate your responses with an X in the approprie
        column reflecting these codes:

                           Y (Yes)                   Total Compliance with Crieri

                           P (Parl) =                Partl Compliance with Crieri

                           N (No) =                  Not in Compliance with Crieri

        During the desk review,                              not include those items necessary to
                                   if the policy materils do 


        make a detenninatn of        compliance (Y, P, or N), mark NA (Not Available) in the
        Comments sectin of the table.

                                 CRIRI                                                           COMMNTS
              Stale Agency approves all AA contracts with
              profitmag gratee
              OM Sec. 212
              Title II expenditures in rural area equal or
              exce 105 % of specified expenditures in FY 1978
              OAA Sec. 307(a)(3)(B)

              AA admistrative expenditures         statewide do not
              exce the 10% limitation
              OAA Sec. 304(d)(1)(A)
              There is no fuding at the 85- 15 match for
              progra development and coordinated activities
              until the specified percentage is expended
              statewide for AA admistration
              45 CFR 1321.7(f)(14)




                                                                                           Financial Management - Final
                      CRIRI                                  COMMNTS
Eah AA reta recrds for 3 yrs aftr the date
tht the AA submits        its fial expenditure report
or the date on which resolution of audit
excetions, litigation ,   etc. ocur (whichever date
is later)


45 CPR 92. 42 & 74 Subpart D

Paricipants are given an     opportty to mae
volunta contributions
45 CPR 1321.67(a)(I)

Limitations on trfers betwee congregat and
home-delivered meat allotments
45 CPR 1321.45

Privacy of contributions
45 CPR 1321.67(a)(2)

Safegurds and accounting for contributions
45 CPR 1321.67(a)(3)

Support service contributions are used to expand
support service
45 CPR 1321.67

In applying program income , the deduction
alternative is not used
45 CPR 1321.73

AA admistration is fuded from Title II B
and/or Title II C , only
OAA Sec. 303(c)
Statewide trafers between Title II B       & C do not
exce 30
OAA Sec. 308(b)(5)(B)

Retention of Federal governent fiancial interet
in   senior centers
OAA Sec. 312
AAs spnd State Agency prescribed percentages
on spified categories of service
OAA Sec. 307(a)(22) and 306(a)(2)
Audits for governental and non- governmental
AAs
OMB Circular A- 128 , A- 133
Nutrition services contributions are    us
incre meals ,     for acces , or for authorize
service.
OAA 307(a)(13)(C)(ii) & 45 CPR 1321.67




                                                        Financial Management - Final
     (If   aditna space is required, use the back of the previous page)

Note: Under the Single Audit concept, the tenn "grantee " refers to the AA , when                    the AA is
an independent agency or organizaon. Otherwise, the tenn "grantee " refers to the
multpurpose agency or organizan , when the AA                     is a separae organizaonal unit within
such multpurpose agency or organizaon.


     How does the State Agency ensure that audits of its gratees wil be conducted                  in
     accordace with the law and the              (i. e., through which methods)
                                            regulations?




                        AAAs must budget funds for audits
                        gratees are directed to have audits conducted in accordance with specified
                        OMB Circulares
                        Other (Identify the specifc procedure and explain)




     What was the last fisca yea during which audits were made of the State Agency

     gratee?

              Beginning date ­

              Ending date ­


     Questons 4c 

                          4f pet1ain to the last fiscal year in which audits were made:

              Prir to the on-sie    visi, list the sample        grantees below. In    preparaon for the on­
              sie visi, ask the State   Agency to have available for each sample AA:

                       the type of audit conducted (A-128 or A- I33) for the      last fiscal year (identified
                       at questn 
   a and b) and
                       the name of the audit agency conducting that audit.

              For each of the sample AAs, fill-in the approprie infonnaton on the following
              table.

                                                           C-4                        Financial Management - Final
       Prr to the on-sie visi, list the sample grantees below. In preparan for the on-sie
       visi, ask the Stae Agency to have availale audit findings for the most recently
       completed A-128 or A- 133 audit of each sample AA. For each of the sample AAs,
                            each approprie
       place a check mark in 
                 column to   designate any deficiencylies that were
       specifed in tha AA' s audit findings.

                                                     AUDIT FIINGS        (Check all applicable)

                                     Inte        Non-compliance
                        GRAE         Control      with Law or       Questioned          Other
                                    Weaes         Regulations         Costs            (Identify)


(1)



(2)



(3)



(4)



(5)



(6)



(7)



(8)



(9)



(10)




                                           C-6                       Financial Management - Final
      The Final SF-          269 Report shows that $                                              (fll-     in amount prior to on-site visi)                 in Title
      il funds was allocted for State Agency administrtion.                                                  What was the            actual amount expended?

                                       (Indicate amount)



                           Don
                                     by
                           I nee to review documentation confirming
                           Documentan is


                                 t Know
                                                        provided




                                               (Check if applicable)
                                                                                        is unavailable

                                                                                                       this information.




                                                                                                               on (date)
                                                                                                                                       Check as approprie:

                                                                                                                                   or will be mae available




      If received, review the documentaton and detennine whether the 
                                                       documented expenditures
      indicate tha more than $300, 000                             , or more than                percent of the Tile III allotments
      (whichever is greater) was lient on State Agency administraon. This may                                                                  require your
      calculang the                 percent figure.


      Indicate your finding: a.                                   More than $300,                     000 or more than                    percent was
                                                              spent
                                                                        $300, 000 or less than          was spent 5%

                                                        - Don                       t Know (Check if applicable)


      Only if the documented expenditures are more than $300                                                    000 or more than                percent, ask
      questn          9.    OthelWise, skip to queston 10.


      What is the reaon(s) for the additional expenditures? (More funds could have been spent if an
      aditna     75 percent was approved by AoA (OAA 308(b).




                             Not Applicable



10.   The Final SF-           269 Report shows that $  (fll-in amount prior to on-          was                                                  sie visi)

      alocted for the State ombudsman program from Title III- B resources. What was the actual
      amount expended?


                                          (Indicate amount)


                                      by
                           I nee to review documentation confirming
                           Documentaton is provided




                           Don    t Know 
      (Check if applicable)
                                                                                                        this information.

                                                                                           is unavailable

                                                                                                                on (date)
                                                                                                                                        Check as approprie:

                                                                                                                                   or wil be made available





                                                                                     C-8                                        Financial Management - Final
Prir to the on-sie  visi, detennine if the State Agency reported any transfers among allotments
during the la Federa fiscal year. lf none               were reported, go to queston
                                                                               lf transfers were            16.

reported, ask the following approprie questions (pre-marked prior to the on- sie visi), depending
upon the type of transfer(s) which occurred.


14.	   Prior to our visit ,       we reviewed fisca data to determine if any trasfers occurred                             among
       alotment durig the last Federal          fisca yea.        Tbe State Agency reported                       (Fill-in with a, b, or
       both a and be as review indicated):

             Trnsfers between Title il- B             and Title il-          C in the amount of : 



             (f-         in amount prior to on-sie visi).


                            Not Applicable



             (If applicable) 


             approprie: Documentaton
             available               by
                                    I nee to review documentation confirming
                                                  is provided 	                  is unavailable 

                                                                                                    this information.       Check as
                                                                                                                        or wil be made
                                                                                                                         on (date)


             Review the documentaton and indicate below whether or not documented transfers
             between Tile lIl-B and Tile Ill- C exceed 30 percent of either of these allotments.

                                  Yes

                                  Don t Know

             Transfers between Title il-              ! and Title il-              2 in the amount of: 



             (fl-in amount prir           to on-sie   visi).


                            Not Applicable



              (If applicable) 

                                    I nee to review documentation confirming                        this information.        Check as
             approprie: Documentaton              is provided 	                  is unavailable 
                       or will be made
             available               by                                                                                  on (date)



             Review the documentatn  and indicate below whether or not documented transfers
             between Tile Ill- l and Tile Ill- 2 exceed 30 percent of either of these allotments.

                                   Yes (If YES, ask queston 15)

                                  No (If NO, go to question 16)

                                  Don t Know (If Don t Know, go to question 16)




                                                                                                          Financial Management - Final
Revew and detennine whether or not the assessment instruments address the financia
management crieri identied in the following table. Indicate your responses with an X in
the approprie column reflecting these codes:
                     Y (Yes)              Total Compliance with Crieri
                     P (Partl) =          Partl Compliance with Crieri
                     N (No)               Not in Compliance with Crieri

During the desk review, if the assessment instrument and                  not include
                                                                relaed materils do

those items necessary to make a detenninatn of compliance (Y, P, or N), mark NA (Not
Availe) in the Comments section of the table.

                            CRIRI                                                    COMMNTS
        State Agency approves all AA contracts with

        profitmag gratee

        OAA Sec. 212

        NOT APPLICABLE TO AAA
        AA admistrtive expenditures statewide do not

        exce the 10 % limitation

        OAA Sec. 304(d)(I)(A)
        There is no fuding at the 85- 15 match for
        program development and coordinated activities
        until the specified percentage is expended

        statewide for AA admistration

        45 CFR 1321.7(f)(14)

        Each AA retains rerds for 3 yrs after the date

        tht the AA submits     its fial expenditure report

        or the date on which reslution of audit

        exceptions , litigation, etc. occurs (whichever date

        is later)


        45 CFR 92.42 & 74 Subpart D
        Parcipants are given an opportty       to mae

        voluntary contributions

        45 CFR 1321.67(a)(I)

        Limtations on trafers between congregate and

        home-delivered meal allotments
        45 CFR 1321.45
        Privacy of contributions
        45 CFR 1321.67(a)(2)

        Safegurd and accounting for contributions
        45 CFR 1321.67(a)(3)

        Support services contributions are used to expand
        support service
        45 CFR 1321.67

                                                                               Financial Management - Final
(If aditna space is required, use the back of the previous page)




                                                              Financial Management - Final
Questns
             23   and   24     apply to the most recent area plan year:


23.	 How many contrcts did AAAs award to profitmakng firms?

                             (Indicate number)

                             Don          (Check if applicable)

                                   t Know 


                             None



          State Agency? 

24.	 If any contracts were made with profitmakng firms , how many firms were approved by the


                                 (Indicate number)

                             Don        (Check if applicable)

                                   t Know




25.	 In Fisca Yea 1978 , what was the tota amount of the expenditures in rural areas from Title
       , Title V (multipurpose senior centers), and Title VII (nutrtion)?

                                              Title II Expenditures

                                              Title V Expenditures
                                              Title VII Expenditures
                                              Don t Know   (Check if applicable)


26.	 What was the tota amount of the Title II expenditures (only) in rural areas included in the
          most recnt Final SF-269 Report?




                             Don   t Know 
   (Check if applicable)


27.	 The preselected sample of 10 Area Agencies on Aging were identified prior to the on-sie
     visi. This sample is to be used throughout the compliance review process for all five
     areas, the firs compliance review being Stewardship.




                                                                                   Financial Management - Final
      ...
  ......
    ''''''. ..
            ''.. ''''..-''''''..
                          ....




                           l; 1

                                   I J

    J!ijJMJ




  COMMEJlS:




ONTERVIEW COMPLETED)





                                          Financial Management - Final
APPENDIX D

                              ----------------------------------------

                        NUON SERVICES COMPLIACE                             REVIEW

                                            HHS/AOA - 03/20/92



State                                                          Date

Prry Respondent                                                       Telephone

Review Tea Leder                                                      Telephone




        Prir to the on-sie visi, obtain copies of        policies, procedures, and other guidance to Area
        Agencies on Aging (AA) on nutrin servces from the State Agency on Aging (State
        Agency). Review and detennine whether or not these issuances address the crieri
        identified in the following table. Indicate your responses with an X in the approprie
        column reflecting these codes:

                           Y (Yes)               Total Compliance with Crieri
                           P (Partl) =           Partl Compliance with Crieri
                           N (No)                Not in Compliance with Crieri

        During the desk review, if the policy
                                         materis do    not include those items necessary             to
        make a detenninaton of compliance (Y, P, or N), mark NA (Not Available) in the
        Comments section of the table.

                                 CRIERI                                              COMMNTS

                I. Eligibility for   Congregate Meas
                    60+
                    OAA 307(a)(13)(A)

                    Handicapped (0: 60) living with
                    participant
                    OAA 307(a)(13)(1)

                     Handicapped (0: 60) living at meal site
                     OAA 307(a)(13)(A)
                     Spous ( 0: 60) of participant
                     OAA 307(a)(13)(A)

                     Volunter ( 0: 60) worker
                     OAA 307(a)(13)(1)

                2. Eligibilty for Home Delivered Meals
                     60+
                     OAA 307(a)(13)(A)(B)




                                                                                     Nutrition Service - Final
                                              ..'
                                              ".;;(""".;.;
                                                     :.,::;;




              CRIRIA	                                          COMMNTS
 Handicapped (.: 60) living with

 participant

 OAA 307(a)(13)(I; 45 CFR

 1321.7(1)(12); AoA-PI- 89-o2


 Spous ( .: 60) of paricipant
 OAA 307 (a)(13)(A); 45 CFR 1321.69B
 Volunter ( .: 60) worker
 OAA 307 (a)(13)(I
 I&R for other participant nee
 45 CFR 1321.65(d)(t)

 Provide caed , frozen , or supplemental

 meals

 OAA Part C- , Section 336

 Meals in weather emergency

 45 CFR 1321.65(e)

USDA Cash/Commodities
 Use by Title Il-C fuded providers for
 the provision of eligible meals regardless
 of the funding source
 OAA 311(a)(I) & (2)
 Cah purchases only U.        grown foo
 OAA 311(b)(2)
 Prompt reporting to USDA
 OAA 311(c)(I)(B), 311(b)(2);

 USDA Foo Distribution Regulations,

 Par 250.42(C)(5)(i)	                           ,m
                                              %#AA.
                                              #WM
 Food service maagement companes	             tH?4%
                                              :%1
                                                :",:-.:x,,
 reciving donated foods have contract
                                              mWi.M
 with the nutrition service provider	
 USDA Regulations , Part 250 , Subpart	        fu111

 B(12)(c)	                                    #tlW'

                                              0:"''''':';
                                              x,.,=:',,:
                                              :.:"'x"'

 Ony IlC gratee get USDA

 reimbursment
 OAA 311(a)(I)
                                              III

                                              ktR

 Maita for 3 years records of cah

 reived and    distribute

 USDA Food Distribution Regulations

 Par 250.42(c)(iii)	                          %WW
                                               f.;-r::::;


 Establish proceures for the prompt
 and equitable disbursement of USDA
 cah recived
 OAA 311(b)(2)
Nutrtion Service

 Lotion of nutrition sites

 OAA 307(a)(13)(D)


                                                               Nutrition Services - Final
At this point, you should have completed the in-house compliance review of the policies,
procedures, and other guidance provied      to AA       on nutrion services. For each crieri Ia-
Igg indicatng an entry of NO, PARTIAL, or NOT AVAIlALE list it in the firs column of
questn            prir to the on-sie
                              intervew. NOTE: For those items marked NA as a result of the
desk review , Stae Agency responses may indicate convertng the NA to Y, P, N, or to NA (State
Agency meets crieri at the State level) or NSC (State Agency does not address this applicable
Federa crieri). Ask questn
       during the on-sie visi following the brief explanaton
initng the intervew.

A few weeks ago , AoA requested copies of the policies , proceures , and other guidance provided
to the Area Agencies on Aging concerning nutrtion services. These were reviewed against
speific nutrtion criteria contaned in the Older Americas Act and the Title II regulations.
Durig ths review , we identified issuances which only parally addressed specific criteria , or we
were unable to identify issuances addressing speific criteria. For these   , I nee to understad:
         How the State Agency directs and guides the AAAs to ensure that nutrition services
         requirements are met for those criteria not addressed or parially addressed.

            Criteria # with

                , Paral , or

            Not Available entry             A!!ency Resoonse




                                                  D-4                          Nutrition Services - Final
Review and detennine whether or not the assessment instroments address the nutrin
semce crieri identfied in the following table. Indicate your responses         in the
                                                                                  with an


approprie column  reflecting these codes:

                    Y (Yes)              Total Compliance with Crieri
                    P (Part) =           Part Compliance with Crieri
                    N (No) =             Not in Compliance with Crieri

During the desk review ,if the assessment instroment and relaed           not include
                                                                    materils do

those items necessary to make a detenninatn of compliance (Y, P, or N), mark NA (Not
Available) in the Comments sectin of           the table.



                        CRIERI                                             COMMNTS
       1. Eligibilty for Congregate Meals

           60+

           OAA 307(.)(13)(A)

           Handicapped ( 0: 60) living witb

           participant

           OAA 307(a)(13)(I)


           Handicapped ( 0: 60) living at mea site

           OAA 307(.)(13)(A)

           Spouse ( 0: 60) of participant

           OAA 307(a)(13)(A)


           Volunteer ( 0: 60) worker
           OAA 307(.)(13)(1)
       2. Eligibilty for Home Delivered Meals

            60+

           OAA 307(.)(13)(A)(B)

           Handicappe ( 0: 60) living with
           paricipant

           OAA 307(a)(13)(I; 45 CFR

           1321.7(f)(12); AoA- PI- 89-02

           Spouse ( 0: 60) of p.rticipant

           OAA 307 (a)(13)(A); 45 CFR 1321.69B

           Volunteer (0:60) worker
           OAA 307 (.)(13)(1)
           I&R for other paricipant nee
           45 CFR 1321.65(d)(f)

           Provide caed , frozen , or supplemental

           meals

           OAA P.rt C- , Section 336

           Meals in weather emergency

           45 CFR 1321.65(e)





                                                      D-6                 Nutrition Services - Final
       gg.




                              CRIRI	                                                  COMMNTS
                  Other nutrition service
                  OAA Par C - Section 331(3)

                  List other nutrition servces in State:




                  Speial menus

                  OAA 307(a)(12)(G)

                  List special menus in State:




       as.	       Assure competition in provider selection

                  OAA Sec. 501(b), Comprehensive Older

                  Americans Act Amendment of 1984;

                  45 CFR Part 92, 36(8) " Procurement"


       bb.       Voluntary Contrbutions

                  Collect and safegurd cah

                  OAA 307(a)(13)(C)(i)
       ce.	       Collection of food stamps
                  45 CFR 1321.65(c)

       dd.	       Confidentiality
                  45 CFR 1321.67(a)(2)

       00.	   6. Health and Safety

                  State and local licensing requirements

                  45 CFR 1321.5

       ff.	       Health department inspections

                  45 CFR 1321.75

                  Fire department inspections

                  45 CFR 1321.75



For each crieri 4a-4gg indicatng an entry of NO, PARTIAL, or NOT AVAILABLE, list it in
the firs column of queston 
  prior to the on-sie interview. NOTE: For those items marked
NA as a result of the desk review, State Agency responses may indicate convertng the NA to Y
  , N, or to NA (State Agency meets crieri at the State level) or NSC (State Agency does not
address this applicable Federal crieri).         Ask queston       during the on-site visit.

A few weeks ago , AoA also requested a copy of the assessment instrument and any applicable
tools used by the State Agency to assess compliance and performance of AAAs with nutrition
service law and regulations. These were reviewed against specific nutrition service criteria
contaned in the Older Americans Act and the Title II regulations. During this review , we
identified issuances which only parially addressed specific criteria, or we were unable to identify
issuances addressing specific criteria. For these         , I nee to understad:

                                                                                      Nutrition Services - Final
(If aditna space is required, use the back of the previous page)


What criteria , not required by Federa law or regulation , has the State Agency included in'
its assessment instrment for nutrtion programs?




      - Don        t Know
   (Check if applicable)

How oftn doe the State Agency assess the Title II- funded nutrition programs?

           Annually
           Every 6 months

           Every quarer
           Monthly
           Other (Define)


What are the sta   and end dates   for the last completed cycle of on-site assessments?

a. Sta date 

b. End date ­





                                                                         Nutrition Services - Fina
11.   Whch of the following activities does the State Agency use to monitor the Title Il- funded
      nutrtion programs? 
 (Read the following list and check responses.

                   Review of report (USDA ,               Progra Performance ,   or other State reports
                   regarding the planned number of meas to be served contrasted with the
                   number of meas actuly served).
                   Commodity withdrawals

                   USDA cash disbursements

                   Other      (Explan):




           - Don            t Know
        (Check if applicable)


12.   What are the most common deficiencies in the nutrition program in this State?




                           Don   t Know
     (Check if applicable)


13.   What technica assistace or trning             has   the State provided to address these deficiencies?




           - Don            t Know 
       (Check if applicable)




                                                                                        Nutrition Services - Final
16.   What factors does the State use in determining the cost of meas:


                                                FACTORS

                  CONGREGATE MEALS                             HOME DELIVERED MEALS




            Uses unit cost per mea
            (Circle if applicable)
            Don t Know

            (Circle if applicable)



17.   Of the following, which USDA option did the State choose?

                 Cash

                 Commodities

                 Cash and Commodities
                 Don   t Know 
      (Check if applicable)


18.   Why was this option chosen?




                   Don    t Know 
     (Check if applicable)




                                                                               Nutrition Services - Final

!il.ii

Criteria




           Nutrition   Service -   Final
y'.gg.




a.
                 w1%




JI.
mijprff          &1M
  :-:,:v;.w,.,.;:X,' .-m:'"




      1m1myg




COMMS:




(INTERVIEW COMPLETED)




                              Nutrition   Services -   Final
gg.




          Ony mc grate get USDA reimbursment
          OAA 311(a)(1)

          Maita for 3 yea recrd          of cah reived and      distributed
          USDA foo distribution      regulations, Part 250.42(c)(iii)


          Establish proceure for the prompt and equitable disbursement of USDA cash recived
          OAA 311(b)(2)
      4. Nutrtion Serice
          Lotion of nutrition sites
          OAA 307(a)(13)(D)

          Outreh to eligible individuas
          OAA 307(a)(l3)(E)
          Eah meal provides a mimum of 1/3 RDA
          OAA Par C - Section 331(1)
          Provide at leat one meal ,
                                  5 or more days per week
          OAA Part C - Section 331(1)
          Nutrition education services
          OAA Part C - Section 331(3)
           Other nutrition service
           OAA Par C - Section 331(3)
           Speiat menus
           OAA 307(a)(12)(G)

aa.        Assure competition in provider selection
           OAA Sec. 501(b), Comprehensive Older Americas Act Amendments of 1984;
           45 CFR Par 92 , 36(8) " Procurement

bb.   5. Volunta Contrbutions
           Collect and safegu cah
           OAA 307(a)(13)(C)(i)

ce.        Collection of   foo staps
           45 CFR 132\.65(c)

dd.        Confdentiality
           45 CFR 132\.67(a)(2)

ee.   6. Heath and Safety
           State and tocalicensing requirements
           45 CFR 132\. 75

ff.        Heath department inpetions
           45 CFR 1321.75
           Fire departent intions
           45 CFR 1321.75




                                                                              Nutrition Services - Final
APPENDIX E

                                              --------                  ------------------




                                    OMBUDSMA COMPLIACE REVIEW

                                                  HHS/AOA - 03/20/92



State                                                            Date

Ombudsn                                                                           Telephone

Review Tea Leder                                                                 Telephone



(Al citations refer to the Older Americans Act)

        Is the Office of the Long- Term Care Ombudsman located in the State Agency on Aging?
        (Hereafer the State Agency on Aging wil be referred to as the State Agency)

                     Yes     (If Yes, go to question 2)
                     No
                            (If No):

                      (1)     Where is it locted?



                      (2)     Is there a contrct between this agency and the State Agency?

                              (a)             Yes
                                                     (If Yes, get copy)
                              (b)
                              (c)             Don    t Know
   (Check if applicable)

        Is the agency that sponsors (houses) the Ombudsman responsible for licensing long-term
        cae (LTC) facilities or an association affiliated with LTC facilties?

        a.           Yes
                            (If Yes, discuss):




                                                                                              Ombudsan - Final
Is there a State law governing the Ombudsman Program?

           Yes   (q Yes, get copy)


           Don   t Know 
   (Check if applicable)

Does the Office of the Long-Term Care Ombudsman utilize sub- State ombudsmen?

           Yes   (q Yes,    go to questn 5)

           No    (q No, go to queston 7)




Describe the organizational relationship between the sub- State ombudsmen and the State
Office of the Ombudsman.




Are there any reportng or operations problems with sub- State   ombudsman?    (Probe both)




                                                                             Ombudsan - Final
10.	   Of that tota         (number provied in   questn      9), how many professional and support staff are:
       (Complete queston using a, b, and c)


                                        PROFESSIONAL                 SUPORT             DON' T KNOW
                                        (Indcate Number)          (Indcate Number)    (Check if Applicale)
       Ful-time employees?
       Par-time employees?
       Volunteers?


11.	   What procures are in place to assure that Ombudsman employees and volunteers are
       qualfied and trained prior to investigating complaints? (Sec. 307(a)(12)(K))          (Probe for
       standrds for both employees and volunteers)




12.	   Does the Ombudsman program formally certfy volunteers?

                      Yes           , go to questn 13)
                              (If Yes
                      No
                             (If No, go to queston 14)


13.	   What are the requirements for certfication?




                                                           E-4	                             Ombudsman - Final
                                              Lo laws , regulations , and policies regarding LTC
                                              facilities       When was the last time traning was
                                                               (If No): 


                                              conducted?


                                              Investigative techniques                 (If No): 
   When was the last
                                              time trning was conducted?





17.	   Is there a formal (written) in-service trning          currculum for            employees?

                   Yes
                         (If Yes, get copy)



18.	   What are examples of the tys      of   training provided in the last year to:                  (Complete queston
       using a , h , and c)

       a. paid full-time   staff




       b. paid par- time staff





       c. volunters?





19.	   How do you coordinate activities with the protection and advocacy systems for individuals
       with developmenta disabilities and menta ilness? (Sec. 307(a)(l2)(H)(v))  (Get examples)




                                                          E-6	                                            Ombudsman - Final
23.   How do you encourage the parcipation by citizen organizations in the Ombudsman
      progra? (307(A)(12)(A)(ii))




24.	 How does the State Agency identify and resolve any potential conflicts of interest affecting
     the Ombudsman , or any employee or representative of the Offce of the Ombudsman?
     (Sec. 307(a)(12)(F)(i), (ii), (iii))




25.	 How does the State ensure that no representative of the Office of the Ombudsman wil be
     held liable for the performance of offcial duties? (Sec. 307(a)(12)(I))




                                                E-8	                              Ombudsman - Final
29.	 Have any sactions ever been applied to any individual or entity?

                 Yes
                         (If Yes):


                  Describe the circumstaces ,   the saction applied ,   and the results of the saction.

                               CIRCUMSTANCES              SANCTION                 RESULTS OF
                                                           APPLIED                  SANCTION
                       (1)



                       (2)



                       (3)



                       (4)




                  (If additonal space is required, use the back of the previous page)




30.	 How do you ensure residents of LTC facilities , throughout the State , are made aware of the
     Office of the Ombudsman?




                                                                                      Ombudsman - Final
36.   Do you prioriti complaints?


                 Yes   (If Yes),   How are complaints prioritized?   (Probe for process,   definitons
                                   used, etc.




37.   How do you ensure your staffs access to LTC facilities, residents , and residents ' records?
      (Sec. 307(a)(12)(B), (K))




                                                                                     Ombudsman - Final
40.	 How do you ensure that the identity of any complainant or resident of a facility wil not be
     disclosed? (Sec. 307(a)(12)(D))




41.	 Has your Offce had to identify the complainant or resident of a facility without his or her
     permssion?

      a. 	       Yes
                       (If Yes), 
   Please discuss the circumstaces and under what grounds the
                                      Offce disclosed this information.




42.	 How is legal counsel made avaiable to the Offce of the Ombudsman?




                                                                                    Ombudsman - Final
46.	 What was the date of your last annual report?(Sec. 307(a)(12)(H))



     (Te "annua report" pertains to Ombudsman report as per Sec. 307(1)(12)(H)

47.	 Were' policy, regulatory, and legislative recommendations made in this report?

                 Yes



48.	 Was the annual report submitted to the State agency responsible for licensing or certifying
     LTC facilties?

                 Yes



49.	 Was it submitted to the State legislature?

                 Yes



50.	 In genera , who else routinely receives the report?




                                                                                  Ombudsman - Finat
                                                          ATTACHMT A

           OMBUDSMA COMPLIACE CRITERIA


307(a)(12)(A)      Full time ombudsan
307(a)(12)(A)ii    Promote citizen organiztion participation
307(a)(12)(B)      Protect confdentiality of records and fies
307 (a)(12)( C)    Unionn reporting system
307(a)(12)(D)      Non disclosure of identity of complainant
307 (a)(12) (E)    Solicit views of AAAs, providers, & elderly
307(a)(12)(F       Conflct of interes
307(a)(12)(G)ii    Abilty to pursue remedies

307(a)(12)(1)      Representatives not held liable
307(a) (12)(J)ii   Prohibit retaliation
307(a)(12)(J)il    Provide sanction authority
307(a)(12)OO       Invesigative training




                                                                Ombudsman - Fina
